FLORIDA CREDIT UNION
PLATINUM ADVANTAGE CREDIT CARD AGREEMENT
January 2019

In this Agreement, the singular includes the plural; “Agreement” means the
terms, conditions and disclosures herein; “Card” means the VISA credit card
and any duplicates, renewals or substitutions thereof; “you” and “your” means
each person or entity whose name is embossed on the face of the Card,
each person or entity who signs, uses or authorizes use of the Card, and
each person who signed the Application for the Card; “Account” means your
credit card line of credit account with Credit Union; and “Credit Union” means
Florida Credit Union or anyone to whom Credit Union assigns or transfers this
Agreement. By signing, using and/or authorizing the use of the Card, you agree
to the following terms, conditions and disclosures:
1. Using Your Account. If you are approved for an Account, Credit Union will
establish a line of credit for you and notify you of your credit limit. You agree
that your credit limit is the maximum amount (purchases, cash advances,
finance charges, plus “other charges”) that you will have outstanding on your
Account at any time. If you are over your credit limit, you must pay the amount
you are over before payments will begin to restore your credit limit. You may
request an increase in your credit limit only by a method acceptable to Credit
Union. Credit Union has the right to reduce your credit limit, refuse to make
an advance and/or terminate your Account at any time for any reason not
prohibited by law.
2. Using Your Card. You may use your Card to make purchases from
merchants and others who accept VISA Cards. However, you may not use
your Card to initiate any type of electronic gambling transaction through the
Internet. Your Card may not be used for any illegal transaction(s). If you wish
to pay for goods or services over the Internet, you may be required to provide
card member security information before you will be permitted to complete
the transaction. In addition, you may obtain cash advances from Credit Union
and from other financial institutions that accept VISA Cards, and from some
automated teller machines (ATMs). (Not all ATMs accept VISA Cards.) To
obtain cash advances from an ATM, you must use the Personal Identification
Number (PIN) that is issued to you for use with your Card. You will hold in strict
confidence the Account number and any PIN to be used with the Card. You will
notify Credit Union immediately of the loss or theft of the Card or PIN.
3. Responsibility. You agree to pay all charges (purchases, balance transfers
and cash advances) to your Account made by you or anyone authorized by you
to use your Account or Card, whether or not you notify Credit Union that they
will be using your Account or Card. You also agree to pay all finance charges
and other charges added to your Account under the terms of this Agreement or
another agreement you made with Credit Union. Delivering the Card to another
person constitutes authorization of that person to use the Card. If you want
to cancel the authorized or permitted use of your Account or Card by another
person, you must let Credit Union know in writing, and if that person has a
Card, you must return that Card cut in half with your written notice. Each of you
is jointly and individually responsible for paying all amounts owed under this
Agreement. Credit Union can require any one of you individually to repay the
entire amount owed under this Agreement. Each of you authorizes the other(s)
to make purchases or cash advances individually.
4. Finance Charges. A finance charge is the cost you pay for credit. We will
charge Interest Charges and Fees to your account as described to you in your
statements and other Truth in Lending Disclosures. The following describes
how the finance charge will be calculated on the Account.

M-125604

You have a 25-day grace (no finance charge) period on your purchase balance
and for new purchases if you paid the entire New Balance on your last statement
by the end of the grace period. You also have a 25-day grace period for new
purchases if you did not have a balance on your last statement. The grace
period starts on the billing cycle closing date. If you do not pay the entire New
Balance by the end of the grace period, a finance charge will be imposed on the
unpaid balance from the first day of the next billing cycle and on new purchases
from the date they are posted to your Account. There is no grace period for cash
advances. A finance charge will be imposed on cash advances from the date
the cash advance is posted to your Account. Balance transfers as permitted by
Credit Union from time to time in Credit Union’s sole discretion will be treated
as cash advances for the purpose of all finance charges and finance charge
calculations.
Finance charges on your Account are calculated by applying the applicable
Monthly Periodic Rate to the average daily balances for purchases and cash
advances. Separate average daily balances are calculated for purchases and
cash advances. To get each average daily balance, the daily balances for
purchases and cash advances for the billing cycle are added and the totals are
divided by the number of days in the cycle. To get the daily balance for cash
advances, new cash advances are added to the day’s beginning balance and
payments and credits are subtracted. To get the daily balance for purchases,
new purchases are added to the day’s beginning balance and payments and
credits are subtracted; however, new purchases are not added if you paid the
entire New Balance on your last statement by the end of the grace period or if
you did not have a balance on your last statement. Fees and unpaid finance
charges are not included in the calculation of the average daily balance. Finance
charges will continue to accrue on your Account until what you owe under this
Agreement is paid in full.
Credit Union may offer balance transfer, introductory rate, or other special rate
promotions for your Account from time to time in Credit Union’s sole discretion.
The applicable Monthly Periodic Rate and ANNUAL PERCENTAGE RATE for
any promotion and any promotion terms and conditions will be disclosed to
before or at the time you make use of such promotion.
5. Other Charges. The following other charges (fees) will be added to your
Account, as applicable:
a. Over-the-Credit-Limit Fee: In the event you incur charges in amounts
which shall cause the Account indebtedness, and if you agree, you shall
pay immediately the amount by which the total New Balance exceeds such
maximum authorized credit, and an over limit fee shall be imposed.
b. Late Payment Fee: If a payment of at least the amount of the minimum
required payment is not received within five (5) days of the Due Date, a late
charge shall be imposed.
c. Return Check /Return Pre-Authorized Payments Fee: We may charge
you this fee each time any payment you make to us is not paid by your financial
institution for any reason, even if that institution later pays it.
d. Card Replacement Fee: In the event any additional or replacement cards are
issued for any reason other than the issuance of a renewal card, a fee may be
imposed.
e. Collection Costs: You agree to pay all costs incurred by Credit Union in
collecting your indebtedness or in enforcing this Agreement, including attorneys’
fees and costs, as well as those costs, expenses and attorneys’ fees incurred in
appellate, bankruptcy, and post-judgment proceedings, except to the extent such
costs, fees, or expenses are prohibited by law.
f. Balance Consolidation/Convenience Check Stop Payment Fee: We
may charge you this fee if we do not pay a convenience check for any reason,
including when your account is in default, overlimit, suspended or closed.
6. Payments. Each month you must pay at least the minimum payment shown

on your statement by the date specified on the statement or no later than
twenty-five (25) days from the statement closing date, whichever is later. If
your statement says the payment is “Now Due,” your payment is due no later
than twenty-five (25) days from the statement closing date. You may pay more
frequently, pay more than the minimum payment or pay the Total New Balance
in full. If you make extra or larger payments, you are still required to make at
least the minimum payment each month your Account has a balance (other than
a credit balance). The minimum payment is 2% of your Total New Balance, or
$20.00, whichever is greater, plus the amount of any prior minimum payments
that you have not made, and any amount you are over your credit limit. Credit
Union also has the right to demand immediate payment of any amount by which
you are over your credit limit. All payments are to be made by check, money
order, or electronic payment drawn in US dollars and payable through a US
financial institution. All payments are to be made at the location specified on
your monthly billing statement. Payments received at locations other than the
address specified or payments that do not conform to the requirements set forth
on or with the periodic statement (e.g. missing payment stub, payment envelope
other than as provided with your statement, multiple checks or multiple coupons
in the same envelope) may be subject to delay in crediting. Credit Union may
accept late payments, partial payments, or checks and money orders marked
“payment in full” and by doing so, Credit Union will not lose any rights under this
Agreement if such irregular payments are accepted.
7. Payment Allocation. Subject to applicable law, your payments may be
applied to what you owe Credit Union in any manner Credit Union chooses.
8. Security Interest. AS A CONDITION OF CREDIT UNION’S OPENING
YOUR ACCOUNT AND YOUR USE OF THE CARD, YOU HEREBY GRANT
TO CREDIT UNION A SECURITY INTEREST IN ALL SHARES, DEPOSITS
AND OTHER FUNDS ON DEPOSIT WITH CREDIT UNION IN WHICH YOU
HAVE AN OWNERSHIP INTEREST (other than an IRA account or an
account where this security interest would cause the loss of tax-exempt
or tax-deferred status). THE SECURITY INTEREST IS FOR ALL AMOUNTS
OWED TO CREDIT UNION UNDER THE TERMS OF THIS AGREEMENT. IF
YOU ARE IN DEFAULT UNDER ANY TERM OF THIS AGREEMENT, CREDIT
UNION SHALL HAVE A RIGHT TO IMMEDIATELY SEIZE YOUR SHARES,
DEPOSITS AND/OR OTHER FUNDS WITHOUT NOTICE OR DEMAND TO
YOU AND TO APPLY SUCH FUNDS TO THE AMOUNTS OWED TO CREDIT
UNION. Collateral securing other loans you have with Credit Union now or in
the future will also secure this loan, except that a dwelling or your household
goods (as defined by the Federal Trade Commission) will not be considered as
security for this Account, notwithstanding anything to the contrary in any other
agreement.
9. Default. You will be in default if you fail to make any minimum payment or
other required payment by the date that it is due. You will be in default if you
break any promise you make under this Agreement or any other agreement
with Credit Union. You will be in default if you die, file for bankruptcy or become
insolvent, that is, unable to pay your obligations when they become due. You
will be in default if you make any false or misleading statements in any credit
application or credit update. You will also be in default if something happens
that Credit Union believes may substantially reduce your ability to repay what
you owe. When you are in default, Credit Union has the right to demand
immediate payment of your full Account balance without giving you notice. If
immediate payment is demanded, you agree to continue paying finance charges
as described in this Agreement until what you owe has been paid, and any
shares, deposits and other funds on deposit with Credit Union that were given
as security for your Account may be applied towards what you owe. You hereby
agree that your salary or earnings may be subject to attachment or garnishment
to the extent allowed under applicable law. You further waive, to the extent
allowed under applicable law, any exemption you might have from attachment or
garnishment of your salary or earnings.

10. Liability for Unauthorized Use-Lost/Stolen Card Notification. You agree
to notify Credit Union immediately, orally or in writing at Florida Credit Union,
P.O. Box 5549, Gainesville, FL 32627 or telephone (800) 449-7728 twenty four
(24) hours a day, seven (7) days a week, of the loss, theft, or unauthorized use
of your Credit Card. You may be liable for the unauthorized use of your Credit
Card. You will not be liable for unauthorized use that occurs after you notify
Credit Union of the loss, theft, or possible unauthorized use. You will have no
liability for unauthorized purchases made with your credit card, unless you are
negligent in the handling of your card. In any case, your liability will not exceed
$50.
Notwithstanding the above, if 10 or more Cards are issued for use by
employees of a single business, there is no limit to the liability of the business
for unauthorized use that occurs before you notify Credit Union of the loss,
theft, or possible unauthorized use as provided in this Agreement. The business
may only impose liability on its employees for unauthorized use of a Card as
authorized by federal law and regulation.
Credit Union will not be liable to any of your or any third party for any
consequential or incidental damages resulting from the unauthorized use of the
Card and/or PIN.
11. Changing or Terminating Your Account. Credit Union may change the
terms of this Agreement from time to time in Credit Union’s sole discretion.
Credit Union may reduce your credit limit, refuse to make an advance and/or
terminate your Account at any time for any reason not prohibited by law. Notice
of any change will be given in accordance with applicable law. If permitted by
law and specified in the notice to you, the change will apply to your existing
Account balance as well as to future transactions. Either you or Credit Union
may terminate this Agreement at any time, but termination by you or Credit
Union will not affect your obligation to pay the Account balance plus any finance
and other charges you owe under this Agreement. You are also responsible for
all transactions made to your Account after termination, unless the transactions
were unauthorized. Your notice of termination will be ineffective until Credit
Union receives the notice and all Cards and has a reasonable opportunity to act
upon it. The Card or Cards you receive remain the property of Credit Union and
you must recover and surrender to Credit Union all Cards upon request or upon
termination of this Agreement whether by you or Credit Union. Credit Union has
the right to require you to pay your full Account balance at any time after your
Account is terminated, whether it is terminated by you or Credit Union.
12. Credit Information. You authorize Credit Union to investigate your credit
standing when opening or reviewing your Account. You authorize Credit Union to
disclose information regarding your Account to credit bureaus and creditors who
inquire about your credit standing. If your Account is eligible for emergency cash
and/or emergency card replacement services, and you request such services,
you agree that Credit Union may provide personal information about you and
your account that is necessary to provide you with the requested service(s). You
are hereby notified that a negative credit report reflecting on your credit record
may be submitted to a credit reporting agency if you fail to fulfill the terms of this
Agreement.
13. Returns and Adjustments. Merchants and others who honor your Card
may give credit for returns or adjustments, and they will do so by sending
Credit Union a credit slip which will be posted to your Account. If your credits
and payments exceed what you owe Credit Union, the amount will be applied
against future purchases and cash advances. If the credit balance amount is $1
or more, it will be refunded upon your written request or automatically after six
(6) months.
14. Additional Benefits/Card Enhancements. Credit Union may from time to
time offer additional services to your Account, such as travel accident insurance,

at no additional cost to you. You understand that Credit Union is not obligated to
offer such services and may withdraw or change them at any time.
15. Foreign Transactions. Transactions initiated in foreign countries and/
or foreign currencies will be charged to your Account in U.S. Dollars. The
conversion rate to dollars will be (a) a rate selected by Visa from the range
of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate Visa itself receives, or (b) the
government-mandated rate in effect for the applicable central processing date,
in each of the above instances, plus or minus any adjustment determined by
Credit Union.
16. Merchant Disputes. Credit Union is not responsible for the refusal of any
merchant or financial institution to honor your Card.
17. Joint and Individual Liability. Each of you is individually and jointly
responsible for paying all amounts owed under this Agreement. This means
that Credit Union can require any one of you individually to repay the entire
amount owed under this Agreement. Each of you authorizes any of you to make
purchases, balance transfers or cash advances individually.
18. Effect of Agreement. This Agreement is the contract which applies to all
transactions on your Account even though the sales, cash advances, credit or
other slips you sign or receive may contain different terms.
19. Severability. In the event that any paragraph of this Agreement or portion
thereof is held by a court to be invalid or unenforceable for any reason, the other
paragraphs and portions of the Agreement shall not be invalid or unenforceable
and will continue in full force and effect.
20. No Waiver. Credit Union can delay enforcing any of its rights any number of
times without losing them. To be effective, any waiver of any term or condition
stated in this Agreement must be in writing and signed by an authorized officer
of the Credit Union and shall not be considered as a waiver of any future or
other obligation or right.
21. Statements and Notices. Statements and notices will be mailed to you at
the most recent address you have given Credit Union. Statements and notices
sent to any one of you will be considered notice to all. Any notice from you will
be ineffective until Credit Union receives and has a reasonable opportunity to
act upon the notice. You must notify Credit Union in writing immediately if you
change your address. You agree to examine periodic statements and to report
any errors or problems to Credit Union within a reasonable time. You agree that
the time to examine the statement and report to Credit Union will depend on the
circumstances, but will not, in any circumstance, exceed a total of 60 days from
when the statement containing the error or problem was first mailed or made
available to you. If you do not report within 60 days, Credit Union will be entitled
to treat such information as correct and any and all of you will be precluded from
asserting otherwise.
22. Binding Nature and Assignment. Credit Union can assign or transfer
your Account or any portion without notice to you or your consent. You may
not assign your Account or any portion thereof without Credit Union’s written
consent, which may be withheld in Credit Union’s sole discretion. This
Agreement shall be binding on each of you and your heirs, legal representatives,
successors and permitted assigns.
23. VISA Rules. You agree to abide by all applicable rules and regulations of the
VISA USA, Inc. as well as all applicable laws. If there is any conflict between the
provisions of this Agreement and the rules and regulations of VISA USA, Inc.,
the rules and regulations of VISA USA, Inc. shall control.

24. Governing Law. This Agreement is governed by the Bylaws of Credit
Union, federal laws and regulations, and the laws and regulations of the State of
Florida, as amended from time to time.
25. Jurisdiction, Venue and Attorneys’ Fees. Any disputes regarding this
Agreement shall be within the jurisdiction of the court of the county in which
Credit Union’s principal place of doing business is located. If legal action is
necessary to enforce this Agreement or collect any amounts owing to Credit
Union or fees or charges assessed under this Agreement, the prevailing party
has the right, subject to applicable law, to payment by the other party of all
reasonable attorney’s fees and costs, including fees on any appeal and any
post-judgment actions. You agree that such legal action shall be filed and heard
in the county and state in which Credit Union’s principal place of doing business
is located, except as prohibited by applicable law.
26. Final Expression. This Agreement is the final expression of the terms and
conditions of this VISA line of credit between you and Credit Union. This written
Agreement may not be contradicted by evidence of any alleged oral agreement.
27. Copy Received. You acknowledge that you have received a copy of this
Agreement.
28. Military Lending Act Disclosures: Federal law provides important
protections to members of the Armed Forces and their dependents relating
to extensions of consumer credit. In general, the cost of consumer credit to a
member of the Armed Forces and his or her dependent may not exceed an
annual percentage rate of 36 percent. The rate must include, as applicable to
the credit transaction or account: The cost associated with credit insurance
premium; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged
(other than certain participation fees for a credit card account). Please call us at
(800) 284-1144 to receive oral disclosures of the Military Lending Act disclosure
above and a description of the payment obligation.
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Florida Credit Union
P.O. Box 5549, Gainesville, FL 32627
You may also contact us on the web: www.flcu.org
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing or electronically. You may call
us, but if you do we are not required to investigate any potential errors and you
may have to pay the amount in question.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received
your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent
on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible
for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then
report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write
to us within 10 days telling us that you still refuse to pay. If you do so, we cannot
report you as delinquent without also reporting that you are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent,
and we must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of
the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit card, and you have tried in good faith to correct the problem with the
merchant, you may have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles
of your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the
goods or services.)
2. You must have used your credit card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses your credit card
account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing [or electronically] at:
Florida Credit Union
P.O. Box 5549, Gainesville, FL 32627
www.flcu.org
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you as
delinquent.

Interest Rates and Interest Charges
Florida Credit
Union Disclosure
Information

Effective January 1, 2019

VISA® Platinum Advantge

8.90% to 17.90%

Annual Percentage
when
Rate (APR) for
you open your account, based on your
Purchases
creditworthiness.
APR for Balance
Transfers

8.90% to 17.90% when

APR for Cash
Advances

17.90%

Penalty APR and
When it Applies

None

How to Avoid
Paying Interest
on Purchases

Your due date is at least 25 days after
the close of each billing cycle. We will
not charge you interest on purchases if
you pay your entire balance by the due
date each month.

Minimum Interest
Charge

If you are charged interest, the charge
will be no less than $1.50.

For Credit Card
Tips from the
Consumer
Financial
Protection Bureau

To learn more about the factors to consider
when applying for or using a credit card,
visit the website of the Consumer Financial
Protection Bureau at http://www.
consumerfinance.gov/learnmore.

you open your account, based on your
creditworthiness.

Fees
Annual Fee

None

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction
Penalty Fees
• Late Payment
• Over-the-credit limit
• Returned Payment

None
None
1% of each transaction in U.S. dollars

Other Fees
• Card Replacement
• Rush Mail Fee
• BalanceConsolidation/
Convenience Check/
Stop Payment Fee

Up to $35
Up to $35
Up to $35
$25
$25 (Priority Handling)
$35

How We Will Calculate Your Balance: We use a method called
“average daily balance (including new purchases).” See your account
agreement for more details.
Billing Rights: Information on your rights to dispute transactions and
how to exercise those rights is provided in your account agreement.

